OIG Investigative Reports, Indictment for Embezzlement of Pell Grants and Job Training Partnership Act Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Miami, Florida January 7, 2002
United States Attorney
Southern District of Florida
99 N.E. 4 Street
Miami, FL 33312
(305) 961-9000
Indictment for Embezzlement of Pell Grants and Job Training Partnership Act Funds
Guy A. Lewis, United States Attorney for the Southern District of Florida; Lester Fernandez, Special Agent in Charge, United States Department of Education. Office of Inspector General; and Lynn Clendenin, Special Agent in Charge. United States Department of Labor, Office of Inspector General, announced today that  a federal grand jury sitting in Miami returned a 17-count Superseding Indictment charging embezzlement of funds from  the Pell Grant Program of the United States Department of Education and embezzlement of Job Training Partnership Act funds from the United States Department of Labor.
The Pell Grant Program provides funding for needy students enrolled in approved courses at participating schools, which obtained accreditation from a nationally recognized accrediting body approved by the Department of Education.  The Job Training Partnership Act of 1982, administered by the Department of Labor, provides funding to prepare youth and unskilled adults for entry into the labor force and  to afford job training to those economically disadvantaged individuals facing serious barriers to employment, who are in special need of such training to obtain productive employment.
The Indictment charges that CARLOS ALVAREZ, PATRICIA DONAWA, KELVIN ALEXIS, THOMAS KOONS, and BEACON CAREER INSTITUTE engaged in a conspiracy to cause the Department of Education to pay Pell Grant funds to BEACON CAREER INSTITUTE to which it was not entitled, to not refund to the Department of Education money that should have been refunded, and to wrongfully misapply such monies. BEACON CAREER INSTITUTE, which was owned by wife and husband PATRICIA DONAWA and KELVIN ALEXIS, was a for-profit school, located at 2900 NW 183rd Street, Miami-Dade County,  incorporated in Florida for the purpose of providing postsecondary education, including technical and vocational training.
Additionally, the Indictment charges PATRICIA DONAWA and KELVIN ALEXIS with conspiring to embezzle Department of Labor Job Training Partnership Act funds through false and fraudulent representations that a relative of theirs was a full-time employee of BEACON working as a Job Developer for the BEACON students covered by the Job Training Partnership Act. The grand jury alleged that PATRICIA DONAWA and KELVIN ALEXIS knew that such relative did not work for BEACON and was not a Job Developer for the BEACON students covered by the Job Training Partnership Act.
The Indictment charges that as a result of their conspiracy, the four defendants caused a loss of Department of Education Pell Grant funds in excess of $720,000.
Twelve of the counts of the Indictment charge crimes that are each punishable by imprisonment for five years. Four of the counts, charging CARLOS ALVAREZ with engaging in monetary transactions in property derived from specified unlawful activity, and one of the counts, charging CARLOS ALVAREZ with theft from a program receiving government funds, each carries a sentence of imprisonment for ten years
Mr. Lewis commended the outstanding work of Special Agents of the Office of Inspector General of the United States Department of Education and Labor. The case is being prosecuted by Assistant United States Attorney Robert	Lehner.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov